FDIC Office of Inspector General Press Release: Former Mortgage Broker and Bank Officer Admits Conspiring to Defraud Bank in Connection with $1.48 Million Loan
News Release
United States Department of Justice
United States Attorney
District of New Jersey
Contact: Rebekah Carmichael
Matthew Reilly
Office of Public Affairs
(973) 645-2888
FOR IMMEDIATE RELEASE
April 11, 2013
FORMER MORTGAGE BROKER AND BANK OFFICER ADMITS CONSPIRING TO DEFRAUD BANK IN CONNECTION WITH $1.48 MILLION LOAN
TRENTON, N.J. â A former mortgage broker and bank officer today admitted his role in conspiring to commit bank fraud in order to secure a $1.48 million residential real estate loan, U.S. Attorney Paul J. Fishman announced.
James Cockinos, 58, of Englewood Cliffs, N.J., pleaded guilty before U.S. District Judge Freda L. Wolfson in Trenton federal court to an Information charging him with one count of conspiracy to commit bank fraud. Cockinos defrauded Washington Mutual Bank (later acquired by JPMorgan Chase) in New York, for the purpose of securing a $1.48 million residential loan.
According to documents filed in this case and statements made in court:
Cockinos was the owner/president of Federated Mortgage Company of America ("FMCA"). He was also a member of the Board of Directors at Mariner's Bank. Cockinos, through FMCA, served as the mortgage broker on a residential loan with Washington Mutual Bank, F.A., in an application dated April 19, 2007. The borrower, identified as Individual 2 in the Complaint, applied for the loan at the request of a spouse identified as Individual 1 in the Complaint. There was no co-borrower on the loan.
The loan was for the purpose of purchasing for $1.9 million a property located in Englewood Cliffs. Cockinos was responsible for obtaining certain information from Individual 2 for purposes of completing the loan application. At the time that Individual 2 signed the loan application, Individual 2 did not review the contents of the application, which included information regarding the purpose of the property and Individual 2's employment, income, and assets.
The application contained false statements concerning Individuals 2's employment, income and assets. Cockinos also indicated in the application that he obtained the information from Individual 2 through a face-to-face interview, when in fact, no such interview took place.
The application indicated that Individual 2 had $400,000 in a joint checking account at Mariner's Bank in New Jersey, when, in fact, Cockinos and Individual 1 caused $350,000 to be temporarily deposited into the joint account for the purpose of misrepresenting that amount as Individual 2's assets. Cockinos also directed a Mariner's Bank employee to falsely verify that there was $350,000 in the joint account for the prior two months, when in fact, there were significantly less funds in the account over the prior two months.
Washington Mutual ultimately approved a loan of $1.48 million and wired the loan amount to Individual 2's closing attorney on June 17, 2007. On Sept. 25, 2008, JPMorgan Chase acquired the banking operations of Washington Mutual Bank. Between Nov. 2, 2010, and Jan. 10, 2011, Individual 2 defaulted on the loan. JP Morgan initiated foreclosure proceedings. The Englewood Cliffs property was sold on March 16, 2012, leaving JPMorgan Chase with a loss of more than $500,000 on the defaulted loan.
The bank fraud conspiracy charge carries a maximum potential penalty of 30 years in prison and a maximum fine of $1 million. Sentencing is scheduled for July 23, 2013.
U.S. Attorney Fishman credited special agents of the FBI, under the direction of Special Agent In Charge Aaron T. Ford in Newark; special agents of the Federal Deposit Insurance Corp., under the direction of Special Agent in Charge of the Northeast Region A. Derek Evans; and criminal investigators from the U.S. Attorney's Office in Newark, with the investigation leading to today's guilty plea.
The government is represented by Assistant U.S. Attorney Zahid N. Quraishi of the U.S. Attorney's Office Special Prosecutions Division in Newark.
13-164                                                                                    # # #
Defense counsel: Edward J. Plaza Esq., Newark